<html>
<title> - THE ADMINISTRATION'S FY 2015 MENA BUDGET REQUEST: PRIORITIES, OBJECTIVES AND CHALLENGES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                THE ADMINISTRATION'S FY 2015 MENA BUDGET
                  REQUEST: PRIORITIES, OBJECTIVES AND
                               CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                           Serial No. 113-138

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-710                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida<greek-l>       JUAN VARGAS, California
TREY RADEL, Florida--resigned 1/27/  BRADLEY S. SCHNEIDER, Illinois
    14 deg.                          JOSEPH P. KENNEDY III, 
DOUG COLLINS, Georgia                    Massachusetts
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
LUKE MESSER, Indiana


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anne W. Patterson, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State.................     8
Ms. Alina L. Romanowski, Deputy Assistant Administrator, Bureau 
  for the Middle East, U.S. Agency for International Development.    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anne W. Patterson: Prepared statement..............    11
Ms. Alina L. Romanowski: Prepared statement......................    23

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    57


                   THE ADMINISTRATION'S FY 2015 MENA
                 BUDGET REQUEST: PRIORITIES, OBJECTIVES
                             AND CHALLENGES

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2200 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. Mr. 
Deutch, our ranking member, will be here with us shortly. So 
Brad, it is up to you to do the opening statement. Okay.
    So after recognizing myself and Brad for 5 minutes each for 
our opening statements, I will then recognize members of our 
subcommittee who seek recognition for their statements.
    We will then hear from our witnesses. Thank you, ladies, 
and without objection your prepared statements will be made a 
part of the record. I did not get the memo on the blue. I would 
have gone with you. But members may have 5 days to insert 
statements and questions for the record subject to the length 
limitations in the rules.
    The chair now recognizes herself for 5 minutes. The Middle 
East and North Africa remain a region fraught with difficulties 
and dangers that threaten United States national security 
interests and must not be overlooked.
    In previous years, the administration has requested but 
never received authorization or appropriations the authority to 
establish yet another flexible spending account in the Bureau 
of Near Eastern Affairs called the Middle East and North Africa 
Incentive Fund.
    This account, in essence, was more like a slush fund for 
the administration to allocate and distribute hundreds of 
millions of dollars in assistance without having to justify to 
or get authority from Congress.
    And though the name has changed, the idea has resurfaced 
again in this year's budget request under the name of Middle 
East and North Africa Initiative. I continue to object to the 
authorization of this initiative and question whether the shift 
to regional accounts is the best approach.
    Many traditional bilateral accounts have decreased and it 
may signal to our allies that the United States is not 
committed to the Middle East and North Africa region. In 
addition, with so many regional accounts already in place there 
is a great risk of duplicity and overlapping of U.S. taxpayer 
dollars.
    The United States has already spent over $1.7 billion on 
the Syrian humanitarian crisis to help those Syrians who are in 
dire need of this assistance and those host governments that 
have taken in a combined total of nearly 3 million Syrian 
refugees despite the incredible strain that it has placed on 
their own governments.
    However, we cannot continue to throw money at the problem 
if the administration lacks a clear and decisive plan in 
dealing with the Syrian conflict.
    We continue to treat the symptoms of the problem but not 
the disease. Perhaps nowhere is this failed leadership and 
misguided policy in the region more salient than the current 
state of the peace process between the Israelis and the 
Palestinians.
    As the deadline came and went today, the process has failed 
and the result has been an announced agreement between Fatah 
and Hamas. This unity reconciliation deal has major 
implications for the Fiscal Year 2015 budget request as the 
administration is seeking over $440 million in direct bilateral 
assistance for the Palestinian Authority and the West Bank and 
Gaza.
    However, if Hamas is part of this Palestinian unity 
government, the U.S. law that I drafted and became a law would 
prohibit this assistance and we must abide by the law. In 2006, 
I authored the Palestinian Anti-Terrorism Act, which later 
became the law that put this prohibition in place.
    The law is clear. The U.S. cannot send funds to a 
Palestinian Government that includes members of the terrorist 
group Hamas. Unlike the United States, which continues to 
negotiate with the world's biggest state sponsor of terrorism, 
Iran, Israel will not and should not be pressured into dealing 
with a Palestinian Government that seeks closer ties with 
Hamas.
    That is why I was deeply dismayed to read Secretary Kerry's 
comments this weekend suggesting Israel will become an 
apartheid state if it abandons the negotiations. These remarks 
are offensive and are beneath the office of the highest ranking 
U.S. Government diplomat.
    But the reconciliation movement is not the only real 
consequence of the administration's failed policies of peace in 
the Middle East. This past weekend, reports indicated that the 
Palestinians plan on moving forward with their scheme at the 
United Nations to be granted de facto recognition by becoming 
members of other agencies, not just UNESCO.
    The administration continues to seek waiver authority to 
fund UNESCO including arrears payments that would leave the 
U.S. taxpayers on the hook for nearly $1 billion after it 
admitted the nonexistent state of Palestine.
    Now this latest move by the PA could force the 
administration into defunding any U.N. agency that admits 
Palestine and I will continue to do everything within my power 
to ensure that no such waiver is granted and that the law will 
be fully enforced.
    Another matter in which the administration's policies have 
been indecisive and where our dithering has served only to 
complicate the situation is the political transition in Egypt.
    While I recognize the security needs of Egypt that are 
essential for stability in the region, I remain concerned over 
the steps that still need to be taken for a democratic 
transition and respect for human rights and feel that perhaps 
more should be done to help establish and fund democratic 
institutions rather than the military.
    The upcoming Presidential elections will be a litmus test 
for Egypt's transition and will give us an opportunity to 
reassess our aid package. I am also increasingly concerned 
about the endless capitulations and concessions to the Iranian 
regime and the havoc that the Syrian conflict is causing in 
Lebanon as that country draws closer to an all-out sectarian 
war.
    And while countries like Yemen, Tunisia and Libya and 
others in the region continue to struggle with deteriorating 
security, economic and political environments, it is clear that 
the U.S. must reevaluate our foreign policy and that there are 
far too many countries of strategic importance to the United 
States' national security in the region for the administration 
to continue to pivot to Asia.
    We must address these issues by first dealing with them 
directly and effectively, and I am so glad that now we can turn 
to the ranking member of our subcommittee, Mr. Deutch, from 
Florida. Thank you, Ted.
    Mr. Deutch. Thank you, Madame Chairman, for convening 
today's hearing. It is a pleasure to welcome back Assistant 
Administrator Romanowski and to extend a warm welcome to 
Assistant Secretary Patterson.
    Thank you for being here. This is your first appearance 
before the subcommittee. It is nice to have you. I want to take 
a moment to commend the work both State and USAID are doing in 
a very challenging region. Both State and USAID have been 
actively engaged in responding to what is, to say the least, a 
very fluid situation in the Middle East, clearly, the most 
immediate being the response to the Syrian crisis. The 
situation is dire. Nine point three million people in need of 
assistance, potentially 3.5 million in besieged areas.
    The $1.1 billion budgeted for Syria humanitarian response 
funds will help to deliver needed humanitarian goods to those 
displaced inside Syria and refugees in neighboring countries. 
In addition, we have increased our aid to countries dealing 
with the influx of refugees.
    Lebanon, with over 1 million officially registered 
refugees, received an increase in aid for training the Lebanese 
Armed Forces to assist with border control and ensure that the 
LAF and Lebanese security forces can have sole control over 
Lebanon security.
    In Jordan, we are supporting efforts to keep critical water 
supplies flowing and increase the quality and capacity of 
educational institutions as well as continuing to train and 
supply needed military equipment to ensure that Jordan can 
secure its borders.
    I am pleased to see the full funding of security assistance 
to the democratic state of Israel, our greatest ally in the 
region. A safe and secure Israel is vital to ensuring U.S. 
interests in the region and while I believe the continued 
economic assistance to the Palestinian Authority to build 
viable state institutions is critical to supporting peace 
efforts, we must ensure that the letter of the law is being 
upheld.
    Let me be clear. No Palestinian Government that includes 
terrorist members of Hamas can or will receive U.S. funding. I 
hope that each of you will provide insight into our aid 
strategy going forward in Egypt.
    Secretary Kerry's recent certification resumed some large-
scale military aid is a result of Egypt's continued commitment 
to securing the Sinai, preventing the smuggling of weapons to 
Hamas and upholding peace with Israel.
    But it is clear that there are real and serious concerns 
that must be addressed with respect to basic human rights and 
democratic values. I am afraid that the status quo is 
unsustainable.
    This budget continues to support strong ties with our Gulf 
partners as we seek to confront mutual challenges like the 
preventing of a nuclear-armed Iran and stopping the spread of 
both Sunni and Shi'ite extremism.
    For long-term success, I believe we have got to focus our 
resources in areas where we can have a sustainable impact. I am 
pleased to see an increased focus on building civil society, 
increasing engagement, building institutions and strengthening 
the rule of law in North Africa.
    In Morocco, USAID is implementing a new country development 
cooperation strategy aimed at increasing civic participation, 
decreasing youth unemployment and increasing access to quality 
basic education.
    As Tunisia moves forward in its quest for democracy, strong 
U.S. support for both civil society and economic programs will 
be vital to its success.
    The situation in Libya requires increased attention. I am 
pleased that this budget reflects our commitment to restoring 
security in Libya. Instability has not only led to increased 
violence, but poor border control has increased the flow of 
weapons and arms into the Sahel.
    And since the withdrawal of American troops in Iraq, we 
have sought to find a balance between our security interests in 
stabilizing the country and our broader regional interests.
    Our reduced presence has resulted in nearly 50 percent 
decrease over the Fiscal Year 2013 funding request. 
Unfortunately, spillover from the Syrian crisis has exacerbated 
the security situation in Iraq as we are now seeing the 
resurgence and emboldening of extremist elements in western 
Iraq.
    At times we find ourselves at odds with the Maliki 
government over Iraq's role in the Syrian crisis, particularly 
as has been discussed many times in this committee the 
reluctance of Iraq to ground and inspect Iranian flights to 
Syria.
    Nonetheless, our continued support for Iraq's stabilization 
advances our security, economic and political interests in the 
region. We all know the United States can't solve the problems 
of the Middle East.
    But in addition to addressing the most pressing security 
challenges, we can put in place strategies and policies that 
attempt to shape the outcome in a way that reflects universal 
democratic values that are of the utmost importance to this 
country.
    I appreciate the flexibility of the Middle East North 
Africa Initiatives Transitions and Reforms Fund to respond to 
changing events on the ground.
    But I hope to hear from both of you today how the United 
States intends to maintain a cohesive policy that not only 
responds to the situation on the ground but continues to 
address what are the underlying causes of instability and could 
be for future generations.
    And again, I want to thank you both for being here today 
and thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. Thank you very 
much, and I know Mr. Meadows came here first but I think it 
will be easier for me just to go down the line, if that is 
okay, Mark. Mr. Chabot is recognized, the subcommittee 
chairman.
    Mr. Chabot. Thank you, Madam Chair, and I will be very 
brief. As always, we face daunting challenges in the region and 
I think we all look forward to hearing from the administration 
here today and we welcome them.
    Yesterday evening, Madam Ambassador, we both had the 
opportunity to speak at a Lebanese-American event 
commemorating, and I think the chair--yes, the Seder Revolution 
last night and I think prior to that I think our paths had last 
crossed in Cairo when you served so well as our Ambassador 
there.
    So we very much welcome you here and welcome you here, Ms. 
Romanowski, as well and so rather than drone on I will yield 
back so we can get to the witnesses as soon as possible. Thank 
you.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot, and so pleased now 
to recognize Mr. Schneider. He was going to pinch hit for you, 
Mr. Deutch, for the opening statement. He would have done an 
equally good job.
    Mr. Schneider. I don't want to interrupt you. Keep going. 
Thank you very much. Thank you for being here.
    As has already been said, there is so much happening in so 
many places around the Middle East and each of these countries 
having great strategic importance and in many cases being a 
strategic threat to the United States.
    How we stay engaged, how we stay involved, where we put our 
limited resources is crucial here. So I welcome you here. I am 
grateful for your willingness to come and speak with us and I 
look forward to hearing your testimony. Thank you.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Kinzinger. Well, thank you, Madam Chair, and, again, 
thank you both for your service to your country and for being 
here.
    I am interested and one of the things I will be looking 
forward to hearing is how the pivot away from the Middle East 
toward Asia has gone and whether or not we are considering a 
repivot back to the Middle East as we have seen pretty much a 
campaign promise of getting out of Iraq fall into our face as 
we see Fallujah now owned by ISIS and al-Qaeda-linked elements.
    And I'm also very interested in the Syrian policy. I am a 
big believer that we should have enforced the red line in Syria 
and that that is a conflict that is only going to continue to 
get worse and there will be no end state in which it stops 
getting worse.
    So, again, thank you both for being here and, Madam Chair, 
I will just yield back.
    Ms. Ros-Lehtinen. Thank you very much and we were consoling 
Mr. Chabot here as we were talking bad about pivoting to Asia, 
since he is the subcommittee chair. Ms. Meng is recognized.
    Mr. Chabot. They appoint me chair of the committee. Then 
they pivot towards----
    Ms. Ros-Lehtinen. And then they pivot.
    Mr. Chabot. Yes, please.
    MS. Meng. I would like to thank Chairwoman Ros-Lehtinen and 
Ranking Member Deutch for calling this important hearing today.
    There is certainly a great deal to discuss and I think we 
have a particularly distinguished panel so we are excited for 
that. Thank you both for being here.
    One thing that occurred to me while reading about the 
Afghan elections last week was the degree to which this 
administration has unburdened the American people of Iraq and 
Afghanistan. And you know, I don't think the President always 
gets enough credit for that.
    With everything going on here at home and with the 
humanitarian and political crises going on in the Levant the 
President has done a great job of enabling us to focus on the 
most important things.
    Obviously, the troop draw downs are huge parts of this but 
there are many other points at which the administration has 
shown discipline and political acumen in relation to Iraq and 
Afghanistan.
    And these less publicized things have helped relieve the 
American people of the burdens of the conflicts in Iraq and 
Afghanistan that have so consumed us in the last decade.
    That is not to say we are not still terribly burdened by 
the effects of the wars on our veterans and troops who continue 
to suffer casualties in Afghanistan. But we are largely 
unburdening ourselves of the emotional and financial costs of 
the current situations in Iraq and Afghanistan.
    Turning westward, I look forward to a discussion today of 
where we are going in Syria, under what conditions we will 
continue to support the Palestinians and what we should expect 
of the Egyptians as they undergo yet another transition of 
power.
    We have spent significant sums in each of these areas so I 
look forward to today's discussion. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, ma'am. Mr. Weber is 
recognized.
    Mr. Weber. Madam Chair, I have no comments and I am ready 
to go.
    Ms. Ros-Lehtinen. All right. Let her roll.
    Mr. Meadows is recognized.
    Mr. Meadows. Thank you both for being here. Ambassador 
Patterson, thank you for your service. Truly, the Egyptian 
people know that you love and care for them and I just want to 
say thank you for doing that.
    It is critical as we start to look at this in this tough 
time to be precise with our dollars, and as I look at the 
budget request if this were a 5-year request then more 
ambiguity and allowing greater flexibility would be something 
that I think most of us could get behind just because of the 
fluid nature of that.
    But because it is a short-term authorization, you know, 
what we really need to hear from both of you is specifically 
how we are going to help in those areas--Egypt being one, 
Jordan another. As we start to look at investment in those 
areas that are perhaps salvageable more so than those that are 
more difficult, what I would like to see is how do we emphasize 
and leverage our dollars most effectively in those areas that 
we can create stability in the Middle East and go forward.
    Thank you. I yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you sir.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. Ladies, I appreciate you 
color coordinating today. Madam Chair, I agree also with your 
assessment about your objection to a blanket approval of 
approving this aid without substantial reforms to our foreign 
aid policies.
    So we do not continue to treat a symptom and not a 
causative agent or the underlying cause of the problems that we 
have seen over and over again for it would be analogous to 
giving an aspirin to treat a brain tumor is just not going to 
work.
    We have got to get at the underlying problem, and I look 
forward to hearing your statements and suggestions on how to 
effectively utilize our support in these times of an economic 
downturn.
    I mean, we don't need to go--you all know where we are at, 
and more desirably I would like to see suggestions on a 
paradigm shift instead of doing the same thing we have done 
over and over again for so many years--a paradigm shift of how 
to better administer the aid that the United States of America 
gives to the countries in the Middle East and elsewhere around 
the world.
    And I would like to focus on trade, not aid, and I look 
forward to hearing you and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Dr. Yoho. And now I 
would like to recognize Mr. Connolly for his opening statement. 
I don't know if the ladies are aware that he is a former 
staffer in the Senate Committee of International Relations.
    Mr. Connolly. I am--I thank the chair for pointing that 
out. We former staffers like to believe it makes for a better 
Congress, you know.
    Madam Chairman, I have an opening statement I would like to 
have entered into the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Connolly. I look forward to hearing the testimony of 
our witnesses today. Thank you for calling the hearing.
    Ms. Ros-Lehtinen. Thank you very much and thank you to all 
of our members and thank you. I am so pleased to recognize our 
two excellent panelists today.
    First, we welcome Ambassador Anne Patterson, who is 
assistant secretary of state for Near Eastern Affairs. 
Ambassador Patterson has been the U.S. Ambassador to El 
Salvador, Colombia, Pakistan and, most recently, as we know, 
Egypt.
    She has also served as assistant secretary of state for 
international narcotics and law enforcement affairs, deputy 
permanent representative to the United Nations and deputy 
inspector general at the State Department. Welcome, Madam 
Ambassador.
    We also have with us Ms. Alina Romanowski, who is the 
acting assistant administrator for the Middle East Bureau at 
USAID, the U.S. Agency for International Development. Prior to 
this position, she served as deputy assistant administrator in 
the Middle East Bureau focusing on U.S. assistance programs in 
support of political transitions in Egypt, Libya, Tunisia and 
Morocco.
    Welcome, ladies, and we will begin with Ambassador 
Patterson. Thank you so much, and as I stated, your entire 
statement will be made a part of the record. Please feel free 
to summarize.

    STATEMENT OF THE HONORABLE ANNE W. PATTERSON, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ms. Patterson. Thank you, Madam Chairman, Ranking Member 
Deutch----
    Ms. Ros-Lehtinen. Pull the microphone a little bit closer 
to you.
    Ms. Patterson. Members of the committee, again, thank you 
for inviting us to discuss our Fiscal Year 2105 budget request. 
We are requesting $7.6 billion for diplomatic engagement and 
foreign assistance to better position us to provide support for 
political and economic reforms as well as to promote security 
and stability in the region.
    This will be hard work and will require all of the tools at 
our disposal. We need dedicated diplomats in the field who can 
operate from secure facilities yet also get out and meet with 
citizens and officials across the region.
    My staff and I pay close attention to threats to our people 
but we also work in some high-threat environments.
    Our targeted assistance programs will support humanitarian 
and security needs, promote economic reforms and strengthen 
governance and democratic values. We will focus on helping 
regional partners counter violent extremism, strengthen their 
economies, improve education and provide jobs, especially while 
expanding business and trade with the United States.
    The department seeks $1.5 billion to respond to Syria-
related and regional contingency needs and to support region 
wide economic and political reform initiatives. The request 
includes $1.1 billion in humanitarian assistance accounts for 
Syria-related humanitarian needs.
    More than 11 million people, half the country's population, 
are displaced or in need of humanitarian assistance and these 
numbers continue to grow.
    We are seeking $155 million in support for the moderate 
opposition and particularly the local councils in Syria that 
are providing services as a bulwark against violent extremists.
    We continue to adjust bilateral programs in order to meet 
changing needs, particularly for Syria, Yemen, Libya and 
Tunisia. We need to be able to respond rapidly to critical 
priorities and take advantage of opportunities.
    Our request includes $225 million to support reforms 
promoting broad-based economic growth, stability and democratic 
change. Beyond our Syria-related and regional contingencies 
request, the Yemen and Iraq bilateral request are our most 
important changes from previous years.
    Our request anticipates the continuing transition of 
contingency operations in Iraq to a more traditional diplomatic 
presence. However, Iraq is fighting off a ferocious effort by 
violent extremists who seek to disrupt its national elections 
and exploit the Syrian civil war to expand their influence 
across the region.
    The United States is providing targeted security and 
development assistance to assist Iraq in its fight and to 
further U.S. strategic interests in Iraq. The $309 million 
request for Iraq is a significant decrease but it focuses on 
U.S. priorities such as programs for counterterrorism, 
vulnerable populations, governance and commercial development, 
especially in the energy sector.
    Yemen's political transition is progressing. It reached an 
important milestone recently through the broadly inclusive 
national dialogue and is working to implement the outcomes. 
With active U.S. engagement, Yemen has made some gains 
extending security in the country both through military 
operations and through reorganization of its security 
ministries.
    We are proposing an enhanced Yemen bilateral budget of $106 
million to help continue the fight against violent extremists 
and humanitarian assistance for vulnerable Yemenis, consolidate 
the transition's democratic gains and address critical economic 
challenges.
    I have just returned from Tunisia, which is making 
considerable strides. Some of you may have met Prime Minister 
Mehdi Jomaa during his recent visit to Washington. Despite its 
gains, underlying economic and security challenges pose 
substantial threats to Tunisia's stability.
    Our bilateral request of $66 million provides resources 
that will enable us to support Tunisia's democratic transition, 
bolster security and promote economic growth. We have requested 
$1.5 billion in military and economic assistance to Egypt to 
sustain our longstanding partnership in pursuit of mutual 
goals.
    As circumstances in Egypt have changed, we have reevaluated 
how assistance best supports our objectives, including a desire 
to work directly with the Egyptian people. For example, we are 
supporting a higher education initiative to help students, 
especially women and girls, earn degrees in the fields that 
provide the 21st century skills urgently needed to rekindle 
Egypt's economy.
    Continuing instability in Libya is undermining the 
government's ability to function effectively or to get the 
country's oil production back online. To support Libya's 
fragile transition, we are bolstering our assistance efforts to 
strengthen internal security, advance the transition, develop 
governance capacity to provide services and create 
opportunities for economic growth.
    The United States has a long-term and enduring commitment 
to support Israel's security and to seek a comprehensive and 
lasting Middle East peace between Israel and its neighbors.
    We remain deeply engaged with Israel and the Palestinians, 
who now are facing some very difficult decisions. They need to 
step back and reflect on how to proceed.
    But there is no change in our commitment to remain engaged. 
Our $3.1 billion bilateral request will help Israel to maintain 
its qualitative military edge, a cornerstone of our policy.
    Our foreign assistance of $441 million for the West Bank 
and Gaza will support the Palestinian Authority's capacity to 
deliver services and improve security conditions while 
reinforcing Palestinian respect for the rule of law and 
fostering the conditions for a strong private sector economy.
    We have increased our bilateral assistance to Lebanon to 
meet challenges posed by the spillover effects of the Syrian 
civil war.
    The $155 million Lebanon request will be used to build the 
capacity of the Lebanese Armed Forces and the internal security 
forces, improve public services, expand growth and build the 
capacity of local government and civil society.
    Along with our loan guarantee programs, the $671 million 
Jordan bilateral request supports the government's political 
and economic reform efforts while helping address challenges 
from regional unrest and the large numbers of refugees from 
Syria.
    Madam Chairman, Ranking Member Deutch, the United States 
continues to face paramount national security challenges in the 
Middle East and North Africa. The resources you provide will 
play a critical role in assuring success and a better future 
both for the people of the region and the interests of the 
United States.
    Thank you.
    [The prepared statement of Ms. Patterson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Madam Ambassador.
    Ms. Romanowski.

    STATEMENT OF MS. ALINA L. ROMANOWSKI, DEPUTY ASSISTANT 
  ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Romanowski. Thank you, Madam Chairman, Ranking Member 
Deutch and members of the subcommittee. Thank you very much for 
the opportunity to discuss the Fiscal Year 2015 budget request 
for USAID for the Middle East and North Africa.
    The U.S. will remain engaged with the governments and the 
people of the region to support their transitions and their 
economic and political reforms. The President's request of $7 
billion for the Middle East supports our continued engagement.
    One point three billion dollars of that request will enable 
USAID to implement targeted programs in the region. The 2015 
request includes $1.5 billion for the proposed MENA initiative, 
which will give us the tools and flexibility to respond to 
Syria-related and regional contingency needs and support the 
political and economic reforms.
    As part of this initiative, USAID will launch two 
initiatives to tackle some of the region's most pressing 
development challenges.
    USAID's new MENA investment initiative will aim to create 
jobs in the region, spur private investment by targeting 
promising start-up businesses that struggle to access 
financing. It will leverage U.S. funding to catalyze resources 
from others.
    The second initiative, the MENA water security initiative, 
will engage the public and private sector to help entrepreneurs 
and researchers develop water smart technologies which, 
combined with economic opportunities, will improve long-term 
sustainable access to water for 20 million people across the 
region.
    To grow the private sectors in Tunisia and Egypt, we have 
established enterprise funds which we will continue to fund in 
2015. We are also working to create business-enabling 
environments that reduce barriers to starting businesses and 
trade.
    In Egypt and the West Bank, for example, we are investing 
in one-stop shops. In Egypt, these shops have reduced the time 
it takes to register a business from over a week to about an 
hour, and in the West Bank I witnessed Palestinians using 
similar shops to receive services from their local government 
quickly, transparently and hassle free.
    We are also focusing on economic empowerment of small and 
medium entrepreneurs. In Libya, we have trained 177 
entrepreneurial women on fundamental business skills. This is 
the first program of its kind to focus on Libyan women.
    In Jordan, USAID has prepared hundreds of thousands of 
students for the job market through a nationwide 
entrepreneurship program, vocational training in the tourism 
and hospitality sectors and internships and job fairs for 
recent graduates. Turning to democratic governance, USAID is 
committed to helping build participatory democracies.
    In Egypt, we have helped thousands of women in rural 
governorates exercise their political and economic rights 
including helping 48,000 women get government IDs. In Yemen, 
USAID helped youth and women take an active role in the 
national dialogue conference and in Tunisia we worked with 
civil society and the government on a consultation process that 
led to adopting some of the most progressive NGO laws in the 
region.
    I would also like to highlight two of our key bilateral 
programs--West Bank Gaza and Egypt. The U.S. Government pursues 
comprehensive Middle East peace by supporting Palestinian 
institution-building so that a future Palestinian state will 
possess the capacity to govern, provide services and ensure 
security and stability within its borders and with its 
neighbors.
    Our 2015 request will continue to build the capacity of 
institutions necessary for a future Palestinian state. In 
Egypt, we have reoriented our assistance to more directly 
support the Egyptian people.
    Our assistance will focus on growing jobs in high 
unemployment sectors, building job skills of young Egyptians 
through a higher education initiative and helping Egyptians 
advocate for improved rights in governance. Finally, I would 
like to turn to Syria, which is a regional challenge of 
daunting proportions.
    AID will continue to provide lifesaving humanitarian 
assistance inside Syria and to Syrian refugees in five 
neighboring countries. In Lebanon, where Syrians now make up 
close to 25 percent of the total population, our assistance 
focusses on water, education and small-scale agriculture. For 
example, USAID has rehabilitated 183 public schools throughout 
the country.
    We will continue to support the Government of Jordan, a key 
partner in the region, by providing critical support to host 
countries--excuse me, host communities to alleviate increased 
demand for services such as primary education and access to 
water.
    In addition to our annual assistance, we are preparing a 
second loan guarantee in 2014. And, in conclusion, the 
President's 2015 budget request ensures USAID programs will 
continue to support the needs and aspirations of the region's 
people during this critical period of change.
    I appreciate the opportunity to appear before you and I am 
happy to answer your questions. Thank you very much.
    [The prepared statement of Ms. Romanowski follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Ms. Romanowski.
    Ambassador Patterson, on Syria in your testimony to the 
Senate Foreign Relations Committee last month, after describing 
our efforts to resupply the Supreme Military Command, SMC, when 
its warehouse was taken over by extremists, you stated that 
when the SMC regained control we began sending supplies again, 
this time directly to trusted commanders.
    But this is a bit disconcerting. What changes have been 
made to U.S. assistance programs since the extremist takeover 
to the warehouse to ensure proper oversight and implementation 
of these programs to Syria?
    And moving to Egypt, one of my major concerns in this 
political transition that is taking place is the government's 
respect for the rule of law. Right now, we are seeing those 
mass trials and other negative trends that point to a country 
that may be slipping on the path toward democracy.
    Next month, as we know, Egypt will hold these Presidential 
elections. This could very well determine who will lead the 
country into democracy or whether the country will fall back 
into its old failed patterns.
    The new government can demonstrate its true respect for the 
rule of law by pardoning the conviction of the 43 NGO workers 
wrongly sentenced last year. Do you think that the Egyptian 
President will be able and willing to do so? In our meeting 
yesterday afternoon it seemed to indicate that they are not 
going to do that. They are asking for the NGOs to come back.
    What are we doing to ensure that the pardon is issued for 
all 43 quickly and ensure that the NGO law is passed to help 
bolster civil society in Egypt?
    And lastly, PA funding. I have concerns over the PA funding 
request especially in light of recent developments. We know 
that the PA continues to pay the salaries to the tune of 
hundreds of millions of dollars to Palestinians who have been 
in Israeli prisons for committing or assisting in acts of 
terror.
    We also know that money is fungible so the PA could very 
well be using our U.S. taxpayer dollars to support these 
convicted terrorists and their families. What is State and 
USAID doing to ensure that our funds are not being used to fund 
these terrorist payouts and to get more oversight and 
transparency over how the PA uses our funds?
    Why do we continue to provide hundreds of millions of 
dollars to this corrupt PA without leveraging or conditioning 
our aid upon implementation of drastically needed reforms?
    So to summarize: Syria, what changes have been made to U.S. 
assistance programs, Egypt, the immediate pardon of the 43 NGOs 
and PA funds going to pay terrorists and the need to get 
transparency to avoid corruption under the PA structure? Thank 
you, Madam Ambassador, Ms. Romanowski.
    Ms. Patterson. Thank you. Let me take those in order, Madam 
Chairman.
    On Syria, we have resumed assistance across the border into 
Syria to the opposition. No system is foolproof, Madam 
Chairman, but we have a very experienced team in Turkey and now 
in Jordan that monitor these. I have met personally with many 
of the commanders and talk to them regularly and have a whole 
range of contacts in the region.
    So we are reasonably confident that this material--more 
than reasonably confident, quite confident, that this is going 
into the proper hands. Again, it is an area of very 
considerable turmoil so no system is perfect. But we are 
reasonably confident we can monitor this and audit this and 
that we know to whom we are giving the supplies.
    Let me also mention that we have a program of building up 
local councils and we pay police and teachers in some of these 
areas in anticipation that there is a structure that can 
deliver public services to the Syrian people when a political 
settlement is reached.
    Madam Chairman, in Egypt, let me say that we too are 
extremely concerned about recent developments--the death 
sentences against activists, many of whom are not even involved 
or not even brought to trial.
    The NGO issue has been a longstanding one between our 
governments and Egypt and I think the Embassy when I was there 
had something like 43 meetings with the government on the NGO 
law--the various governments.
    Of course, we have had three of them in the past 2 years. 
It has been an exceedingly high priority for us. I can assure 
you that Secretary Hagel has raised it. Secretary Kerry has 
raised it on many opportunities.
    He is meeting today with the foreign minister, Nabil Fahmi. 
We have pushed repeatedly for a pardon for the NGO workers and 
for others and it will continue to be a priority going forward.
    Ms. Ros-Lehtinen. And if I could interrupt you. In our 
meeting yesterday with the minister he did not indicate that 
there would be any movement on that issue.
    Ms. Patterson. Madam Chairman, I too have discussed this 
with the foreign minister and with General el-Sisi before he 
was a Presidential candidate. I want to tell you I think it 
will be a hard sell.
    I think there is little appetite for NGOs, which they 
accuse of foreign interference, and but all I can say is we 
will continue to press the point. We also--the good news, 
however, is there are a number of NGOs in Egypt that do want to 
work with us and that we have been able to work with throughout 
this period.
    Ms. Ros-Lehtinen. On the PA issue?
    Ms. Patterson. Yes. Madam Chairman, let me say that we made 
a request of $440 million for the Palestinian Authority and I 
think--but I want to ask Alina to answer this question--I think 
there is a extraordinarily complex auditing process.
    I think I saw something like 16 steps to audit where this 
money goes and to ensure that it goes into the proper hands. I 
believe the GAO just did a study and found out that while there 
were some paperwork snafus they were confident that the money 
was going into the right hands and not, as you say, into hands 
of terrorists or otherwise. We support----
    Ms. Ros-Lehtinen. And with what the law is saying, if there 
is a unity government and they have signed such a deal not 
implemented yet but signed.
    Ms. Patterson. Yes. Madam Chairman, let me assure you of 
the administration's position on that. This is the--because 
this is the seventh unity discussion and announcement and chit 
chat since 2011 and we have got to see what evolves here.
    I saw this frequently in Egypt, that they would issue 
statements and nothing would come of it. But let me be utterly 
clear about our policy toward Hamas. No U.S. Government money 
will go into any government that includes Hamas until Hamas 
accepts the quartet conditions and that is renouncing violence, 
recognizing previous agreements and, most explicitly, 
recognizing Israel's right to exist.
    Ms. Ros-Lehtinen. Thank you, and my time is up and so I am 
sorry, Ms. Romanowski, but maybe the others will ask those 
questions and give you an opportunity to respond. Thank you 
very much, Madam Ambassador. So pleased to yield to my friend, 
Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. Ambassador 
Patterson, I will just continue with where the chairman left 
off. I understand that there have been discussions of unity 
government in the past.
    But I just wanted to touch on a few things that you said. 
You just said that the principles renouncing violence, 
recognizing that Israel agree to past agreements are 
requirements.
    But you said we have got to see what evolves. You said that 
Israel and the Palestinians need to step back and consider how 
to proceed. You said in your written testimony that what we 
haven't seen, frankly, is the kind of political will to 
actually make tough decisions, and that has been true on both 
sides.
    I understand that there has been talk of unity governments 
in the past. But why should any discussion of a unity 
government with a terrorist group be treated with any less 
alarm and concern and outrage, frankly, just because these 
talks have taken place in the past and the governments have 
never formed?
    I mean, to suggest that both sides simply need to take a 
step back and see if they are serious about peace without 
expressing what I think would be necessary outrage at the 
decision by President Abbas to turn to a terrorist group to 
form a government to me shows what I think should be a real 
concern about the commitment to peace.
    And it is just--it is frustrating, frankly, that because 
there has been--there have been conversations like this in the 
past that haven't gone anywhere that somehow in some quarters 
it seems that we don't take it as seriously as I would suggest 
we need to when one of the partners that we need for peace has 
announced that they are willing to throw in with a terrorist 
group that we and our allies recognize as a terrorist group.
    Ms. Patterson. Mr. Deutch, I certainly appreciate that 
point. Let me say that relations between President Abbas and 
the leadership of Hamas are--well, they hate each other.
    They are not positive at the slightest and there is some 
thought that one way to get rid of Hamas is to hold an election 
because that is how they entered the political process and that 
is how Abu Mazen--President Abbas should get rid of them. But 
they are a terrorist group. They are a terrorist group under 
U.S. law.
    But I wouldn't want to throw out the entire Palestinian 
Authority over a discussion with Hamas that historically has 
not gone anywhere.
    The Palestinian Authority needs our support and some 
elements of this, particularly the security forces, have been 
an enormous success over the past several years--the ability to 
protect 2.5 million Palestinians, to have a professional 
security force. So I take your point and I agree with you. But 
I don't think we should essentially throw out the baby with the 
bath water.
    Mr. Deutch. I have--Ambassador Patterson, as you know, as I 
stated earlier and as I stated many times, I have been fully 
supportive of those efforts. I think they have been vitally 
important to enhancing security in the West Bank, security in 
Israel and throughout the region.
    But to suggest that we are somehow throwing out the baby 
with the bath water because--let me put it this way. I don't 
think it should be up to us to remind President Abbas that they 
need our support when it has been clear--it has been the 
position of the United States Congress that any decision that 
they make to align themselves with a terrorist group will mean 
the end of the funding.
    It is not--I don't think it is up for us--it is necessary 
for us to remind them. That is something that should be very 
clear to them. But I appreciate the point.
    I just wanted to quickly turn, if I may, to Iran, 
Ambassador Patterson, and the administration had pledged to 
strictly enforce existing sanctions. The President had said he 
would come down on sanctions violators like a ton of bricks and 
to his credit and to the administration's great credit 
sanctions have been imposed numerous times throughout the 
interim agreement.
    Under the joint plan of action the U.S. committed not to 
seek further reductions in Iranian oil exports below the 
million-barrel-per-day mark and the IAEA reports that Iran's 
exports reached 1.65 million barrels per day in February and 
that their exports exceeded the million-barrel mark in every 
month during the agreement thus far.
    I just--I would like to know if the numbers are accurate, 
if you could make available the department's country by country 
estimates on Iranian oil imports and then ultimately where does 
that lead, and if it is true that they are in excess of a 
million barrels per day and countries are violating will 
sanctions then follow.
    Ms. Patterson. Mr. Deutch, let me assure you that sanctions 
will continue to be imposed vigorously on violators. I think 
our policy on that has been quite clear. On the oil shipments 
per se, some of those statistics are seasonally adjusted. In 
other words, there are seasonal fluctuations and some of them 
include condensate so they are not entirely----
    Ms. Ros-Lehtinen. They include--what was that?
    Ms. Patterson. Condensate.
    Ms. Ros-Lehtinen. Okay. If you can move it up a little bit 
closer.
    Ms. Patterson. They are not entirely--they are not entirely 
crude oil. But let me say----
    Ms. Ros-Lehtinen. Can you move the microphone just a little 
bit closer?
    Ms. Patterson. Yes. Let me say that we think over time, 
over the next few months, that there won't be a net change.
    Mr. Deutch. Okay. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Chabot is 
recognized.
    Mr. Chabot. My colleagues have already emphasized our 
concern about the involvement of Hamas and a unity agreement 
and all that so I don't want to beat a dead horse but I guess I 
will.
    I think we all feel very strongly about this on both sides 
of the aisle so I would just like to reiterate everything that 
they said relative to that matter and I agree with them 
completely.
    And we have great concern and great frustration and we 
think there ought to be no circumstances under which any tax 
dollars should in any way go to support a terrorist 
organisation like Hamas. You have been very clear in your early 
statement that that will be the case.
    But these discussions have gone on and apparently haven't 
gone anywhere in the past and I certainly understand your point 
about that. But we feel very strongly about this. Just let me 
leave it there. You can respond or not.
    Ms. Patterson. No. Just let me restate our assurances. No 
more money will go to Hamas unless essentially it stops being 
Hamas.
    Mr. Chabot. Thank you very much. Let me shift over to 
Lebanon for just a minute here.
    As we know, Presidential elections will be happening in a 
few weeks and parliamentary elections, I believe, in the fall, 
and Hezbollah, of course, I think we can count on them to 
intimidate and coerce and to some degree disrupt and try to 
enforce their will on the people of Lebanon.
    And one of the conditions that we would like to see in the 
next government--there are a number of them but I think one of 
the most important is the disbanding of the militias, 
particularly Hezbollah, and could you touch on the 
administration's view on that and what, if anything, we are 
doing on that and what we expect from the next government and 
how realistic it is that they actually follow through and 
disband the militias, especially Hezbollah?
    Ms. Patterson. Well, our policy, Mr. Chabot, toward 
Hezbollah has been well known over many years and the subject 
of very extensive sanctions and I know there is a bill from 
this committee that will intensify those sanctions, too.
    But let me say that, again, I want to be realistic with the 
committee. I think the possibility of eliminating Hezbollah 
from essentially Lebanese political life in the short run is 
remote. But let me say that we urge them to exclude Hezbollah. 
We do not deal with the two ministers from Hezbollah.
    We are very specific about that. We have no relation about 
that and we have certainly encouraged the Lebanese Government 
to move forward with elections on time and a free parliamentary 
system.
    Mr. Chabot. Thank you. Let me just ask one final question 
here. I am concerned about what ill effects there might be from 
this Hamas Fatah even talking of a possibility of an 
agreement--the role that that might play on the U.S. security 
coordinator for Israel and the Palestinian Authority.
    I had the opportunity to visit their training facility 
during General Moeller's tenure and was impressed with the work 
being done there and the professionalism of our team. Can you 
give us an update on how it is going and can you speculate as 
to what would happen if there--if this unity agreement might go 
forward?
    Ms. Patterson. Well, this program has been very successful. 
They have trained over 4,500 regular policemen and 2,000 of the 
presidential guard, and the $70 million that we requested in 
this budget is for essentially refresher and advanced training 
to improve the capacity of the Palestinian security forces in 
things like forensics and criminal investigations.
    Again, it would be--it would be a disaster, of course, if 
Hamas would somehow be integrated into the security forces. But 
I think the chances of that are remote and, again, we would not 
support that. But the project itself has been going very well.
    Mr. Chabot. Thank you. I yield back, Madame Chair.
    Ms. Ros-Lehtinen. Thank you. And I thank Mr. Schneider for 
being sweet enough to allow Mr. Connolly to go first. Thank 
you, Mr. Schneider. Mr. Connolly is recognized.
    Mr. Connolly. I thank the chair and I thank my colleague, 
Mr. Schneider. Secretary or Ambassador Patterson, going back to 
Egypt, the chairman laid out some of the enormous challenges to 
any semblance of democracy in Egypt.
    We have a military government that overthrew what your 
colleague testified before this committee a few months ago was 
a freely and fairly elected government. It has mowed down 
hundreds of citizens in the streets.
    It has condemned to death at least 700 Egyptians and, by 
the way, their political affiliation certainly is not 
justification for being sentenced to death. How in the world do 
we continue to justify decisions such as that made recently by 
Secretary Kerry nonetheless to go forward with the delivery of 
Apache helicopters to that military?
    Ms. Patterson. Mr. Connolly, you are entirely correct in 
the issues that you have outlined and the extremely dire human 
rights situation that is taking place in Egypt, and this is of 
enormous concern to us and it is the reason that we did not 
proceed with the certification on governing democratically. So 
the two certifications essentially allow us to keep the 
contracts alive.
    But let me also stress, Mr. Connolly, that we have serious 
national security interests in Egypt as well based on 
geography, based on the situation in the Sinai. Egypt, like 
other countries in North Africa, is essentially caught between 
the enormous weapons flows out of Libya and the jihadi flow out 
of Syria and the situation in the Sinai has flared up.
    Egypt has been a good partner even with this very 
problematic human rights situation. Egypt has been a good 
partner to Israel and has closed down many of the tunnels in 
the Sinai.
    So this is really a situation in which we have a range of 
objectives in Egypt and they don't always coincide. We decided 
to release the Apaches because the Egyptian Government has 33 
Apaches of which only a few were operational and functional at 
this time so they needed these Apaches to use in the Sinai and 
we have held back the other major weapons systems.
    Mr. Connolly. Ms. Romanowski testified about--in fact, 
cited as an exemplar democracy-building projects in Egypt that 
USAID is supporting. But, clearly, Egypt is headed in the wrong 
direction with respect to building democracy. At what point do 
you reevaluate the efficacy of our aid investments despite our 
noble intentions?
    Ms. Romanowski. Mr. Connolly, we have had over the years 
tremendous success in our programs to support--that directly 
support Egyptians in building their economic growth and in the 
higher education and bringing skills to Egyptian people.
    We are reorienting our program to do more and more directly 
with the Egyptian people. We do have and we do know that there 
are many NGOs in Egypt that still would like to work with us 
and benefit from the expertise and the technical assistance 
that we do provide them. It will be a very long process.
    Mr. Connolly. Aren't they at risk? The chairman pointed out 
the still unresolved NGO situation in terms of 40 something 
people with trials pending haven't been accused of being 
foreign agents when they are guilty of nothing other than 
having cooperated with us excepting in some cases funding from 
us in the democratization process, and that was several 
governments ago and yet this current government persists in 
that persecution.
    At what point do we determine on a bilateral basis we are 
putting people at risk seeking NGO cooperation?
    Ms. Romanowski. Mr. Connolly, I agree with you and we are 
constantly reevaluating our ability to conduct and continue 
those programs. But we do feel that it is important to look at 
those programs and to the extent to which that these NGOs do 
want to work with us and can safely work with us.
    Mr. Connolly. Well, it just seems to me that at some point 
the fiction that we are helping to build democracy in Egypt has 
to be addressed and at some point that balancing act, 
Ambassador Patterson, that you talked about, which one can 
understand, we do have vital security interests.
    Egypt is not just any other country in the region. They are 
a vital part of the Camp David process. But we need to be true 
to our own ideals about it.
    At some point, it seems to me, we are going to have to face 
the moment of truth about where this government is headed and 
what investments we are willing to continue to make in it. 
Otherwise, we make a mockery of the word democracy and the idea 
of building democratic society.
    No such thing is occurring in Egypt. Quite the opposite. 
And that doesn't mean we abandon all of our investments but at 
some point, it seems to me, we have to take a cold hard look at 
their efficacy despite our good intentions.
    A lot of money is going into that. Madam Chairman, I don't 
know if I have any----
    Ms. Ros-Lehtinen. Well put. Thank you so much.
    Mr. Connolly. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    Mr. Connolly. And I appreciate, Mr. Schneider, your 
courtesy.
    Ms. Ros-Lehtinen. And just for the information of the 
members, this is the order in which you will be recognized--Mr. 
Meadows, Mr. Schneider, Mr. Kinzinger, Mr. Weber, Mr. 
Cicilline, Dr. Yoho and Mr. Cotton. And so we will now turn to 
Mr. Meadows.
    Mr. Meadows. Thank you, Madam Chairman. Thank you both for 
your testimony.
    Ambassador Patterson, I would like to go to you with 
regards to the Palestinian issue. You talked about four tenets. 
You talked about, I guess, the auditing of moneys that assured 
us that our money is not going to support terrorist families.
    It is still difficult to go home and talk about aid to the 
Palestinians, you know, and $400 million plus when we have 
their minister of prisons saying that the people in prison--
terrorists--are heroes. How can we do a better job of making 
sure that indeed--because money is fungible--I mean, it gets 
moved around.
    If we are supporting economic activities in Gaza or 
wherever it is and yet they are still building terror tunnels 
daily how do we hold them accountable for the American people 
so the moneys that we give them do not come back to provide 
terrorist activities to our greatest ally in the Middle East--
Israel? How do we do that?
    Ms. Patterson. Mr. Meadows, let me assure you that we have 
this conversation with them often. I personally had it with a 
Palestinian official just last week and let me also assure you 
that I think there is some very considerable soul searching 
going on in the Palestinian Authority about this if only 
because it is fiscally irresponsible and very expensive to 
maintain these stipends. So I am hopeful we will see some 
change in this.
    Mr. Meadows. Can we send a very clear message? And I 
understand it is a delicate thing. I don't want to get in the 
middle of negotiations. However, can we send a very clear 
message that unless this stops the money will stop? Because, I 
mean, it is impossible for us to look at it so let us look at 
incitement.
    You know, in the last omnibus there was a provision in 
there that said the Palestinians had to do more than what they 
were doing in terms of to make sure that incitement was not 
taking place, that Secretary Kerry has to basically say that 
that is not happening.
    And yet our own Ambassador to Israel says that incitement 
is taking place with regards to the Palestinian Authority. So 
how do we as people of--you know, the State Department have two 
conflicting messages. One says incitement is not happening. The 
other says it is. How do we make sure that that stops as well?
    Ms. Patterson. Well, at least I am not aware that we have 
said incitement doesn't happen. I think what we are trying to 
say at least is that there have been some improvements and that 
we work vigorously with the Palestinian Authority, particularly 
on issues like textbooks where there has been some progress in 
recent years, to reduce the incitement and sort of the anti-
Israel bias.
    So I don't think we would say that there--I think we would 
say that we are working on this. Vis-a-vis the message, I 
think, Mr. Meadows, you can rest assured that very stiff 
messages about this are conveyed to the Palestinian Authority 
on a regular basis.
    Mr. Meadows. Well, but making progress and stopping it and 
saying that it has stopped are two different things. The 
language in the omnibus appropriations was very clear and it 
didn't say that we had to make progress.
    It said that we had to certify that they--that it was not 
being done, and yet we are not seeing that. So I guess are you 
saying that you and Secretary Kerry are willing to say that the 
Palestinian Authority is doing all that they can do to stop 
incitement at this point? You are willing to certify that?
    Ms. Patterson. I don't know. I can't answer that question, 
Mr. Meadows. I can't answer that question now. I would have to 
go back and review the record on this and see exactly what the 
Palestinians have done.
    But what I can assure you is that we do everything we 
possibly can to reduce this and to engage with them on this 
issue.
    Mr. Meadows. All right. At what point, when we continue to 
just send money and send money and send money and never take it 
away, does the leverage of the money that we send them stop 
being a leverage?
    Ms. Patterson. Mr. Meadows, providing money for the 
Palestinian Authority is in our interest, in many cases.
    Mr. Meadows. I agree and----
    Ms. Patterson. It provides----
    Mr. Meadows [continuing]. I am a student of the Middle 
East----
    Ms. Patterson. Yes.
    Mr. Meadows [continuing]. And so I follow it and I 
understand that there are but at some point when our words 
become meaningless the leverage of those dollars they cease to 
exist. Would you not agree with that?
    Ms. Patterson. Well, yes. I would think that that is 
probably true all--you know, across any foreign assistance 
account that you don't want to make statements that then--about 
which you then don't deliver.
    Mr. Meadows. Right.
    Ms. Patterson. No, I entirely agree with that. But we have 
made progress with the Palestinian Authority and sort of to 
back up and take a broader look at this, I think the 
secretary's view on the peace process right now is that we are 
in a pause and I think he would say that both sides recognize 
that they have to get back to negotiations and that even Prime 
Minister Netanyahu used the word suspend and not cease.
    Mr. Meadows. Right.
    Ms. Patterson. So the idea is to work with the parties to 
get back to the negotiating table because I think people on all 
sides realize the two-state solution is the only way forward.
    Mr. Meadows. All right. Let me follow it with one last 
question and then I will throw one to you and I will yield 
back. You mentioned in your tenets--your quartet you said the 
Palestinian and--we say now Palestinian/Hamas, if that is what 
it becomes, the recognition of Israel's right to exist.
    Ms. Patterson. Absolutely.
    Mr. Meadows. At what point does that become the recognition 
of a Jewish state? Because that is something that they have 
never--you know, Israel is willing to recognize a Palestinian 
state but yet Jewish state is different than recognizing 
Israel. So at what point do we change our rhetoric to say a 
Jewish state?
    Ms. Patterson. Well----
    Mr. Meadows. Or do we?
    Ms. Patterson. I can't answer that, Mr. Meadows. The broad 
scope of international law and quartet principles and U.S.--and 
U.N. resolutions on this says to recognize Israel's right to 
exist and before they take that fairly fundamental and 
elementary step I think it is highly premature to get in any 
further discussion. That would be a quite momentous step to 
recognize Israel's right to exist by Hamas.
    Mr. Meadows. All right. Ms. Romanowski, let me go back. 
What matrix do we look at in terms of USAID, in terms of the 
effectiveness? You read off a litany of things that we have 
spent millions of dollars on in terms of what--in terms of 
training--additional training and yet what we see is the per 
capita GDP in many of those countries actually going down, not 
increasing.
    So at what matrix do we look at to say that these dollars 
are being effective and not just providing a training? I am 
your biggest advocate when it comes to really putting dollars 
to make a difference.
    I am your worst nightmare when it comes to spending dollars 
when all we are doing is filling out and saying well, we have 
trained 1,000 people and yet GDP goes the other way. What 
matrix is out there?
    Ms. Romanowski. Mr. Meadows, that is a very important 
question and it is a very important question for us and we are 
constantly looking at setting up those very detailed metrics to 
measure against our programs.
    I think one very broad metric is not just have we trained 
these young people or trained women but have they also then 
been able to secure jobs in the areas that they were trained. 
And we know that in many of our programs--for example, the ICT 
program in Tunisia--we have been able to see Tunisians--2,600 
Tunisians actually get jobs and begin to expand the ICT sector 
in Tunisia. I will go back----
    Ms. Ros-Lehtinen. Mr. Meadows, I know you have a very 
inquisitive mind and Ms. Romanowski----
    Mr. Meadows. I will yield back.
    Ms. Ros-Lehtinen [continuing]. Is a wonderful witness but 
we are going to move on out of there. Thank you so much. Mr. 
Schneider, thank you for being kind enough to yield to Mr. 
Connolly.
    Mr. Schneider. My pleasure, and thank you, Madame Chair. I 
guess I am going to start--well, let me take a step back.
    In my opening remarks, I commented about the dynamics 
taking place throughout the Middle East and the work that you 
all do. Thank you again for being here. And so many of the 
areas are--you know, these states are keystones in a way.
    Egypt, surrounded by Libya, Sudan, the Sinai is a keystone 
and what happens there is going to affect the region. Syria, 
obviously, with Lebanon and Turkey and Jordan and Israel is a 
keystone--what is happening in Yemen.
    And it is important that we, as was said before, maintain a 
focus. As the U.S. increases engagement in other areas of the 
world we need to make sure the U.S. stays engaged here.
    But I want to come back and, as others have talked about, 
talk about the Israeli-Palestinian negotiations. Ambassador, 
you said there are a number of U.N. resolutions. On November 
29th, 1947, in Resolution 181 the U.N. was clear. There would 
be a Jewish state and an Arab state, and the Jewish state that 
came into existence on May 14th, which will celebrate its 65th 
birthday on Monday, is the Jewish state of Israel with equal 
rights for all citizens regardless of religion.
    But that is a clear and defined and stated fact and it is 
not up for the Palestinians to define it. It is only up for the 
Palestinians to accept that and recognize it.
    I am grateful that there is full support and funding for 
Israel in this budget of $3.1 billion and Israel is in a 
position that it has to make a lot of choices and its choices 
are existential choices.
    You talked a bit about the qualitative military edge. 
Israel doesn't have the numbers but it has to have an edge, an 
advantage technologically that the United States is committed 
to supporting and I am grateful for the support of my colleague 
from Georgia, Doug Collins.
    We introduced a bill to move the assessment from 4 years to 
2 years and that passed the House unanimously. I would like to 
see it move in the Senate.
    Israel has as a keystone state threats on all of its 
borders including on the north from Hezbollah. I am grateful 
for my colleague, Mr. Meadows, who has introduced a bill with 
me to sanction Hezbollah.
    But Israel's choices are does it deploy its iron dome in 
the north or the south and it can't do it all every day because 
the threats are so overwhelming. The Palestinians, on the other 
hand, also have choices and they are making very different 
choices.
    They can choose whether or not to continue its incitement 
or move back and they have continued to in their textbooks, in 
their rhetoric, incite and promote conflict with the Israelis. 
Abbas can make a choice. Does he work toward peace and 
negotiations, true negotiations with the Israelis, or does he 
turn to Hamas and he made that choice, and he made that choice 
before the deadline, as we said today, when the negotiations 
came to an end.
    The Palestinians have a choice. Do they seek statehood 
through negotiations with Israel and mutually agreed 
definitions of what that means or do they go to the United 
Nations and go ways that trigger actions by the United States? 
And thank you, Madam Chairman, for your leadership on this 
issue.
    And they continue to make that choice of going to the U.N. 
and seeking acceptance in those bodies. And they can make a 
choice whether to engage Israel legitimately or to continue to 
seek Israel's delegitimization around the world and they 
continue to choose the others.
    Yet we continue to send funds to the Palestinians because, 
as you said, we need to work on development aid. We need to 
work on services, rule of law and a private sector because 
those institutions become paramount. But the question is what 
partner do we have to work within--in the Palestinian 
territories--what partner does Israel have.
    Who is building these institutions and how do we make sure 
that those institutions and the money we send are happening as 
opposed to money going to fund terrorists in jail for the 
actions they took at a time in the past.
    Ms. Patterson. Mr. Schneider, this is an enormously complex 
issue and let me give you an example of how we are trying to 
work with the Palestinians.
    I have been to two conferences. I am very interested in the 
economic and job creation side of this so I have been to two 
conferences recently with the super impressive young 
businessmen from Palestine. And you know, I might hazard to say 
that if you can be an entrepreneur in the West Bank you can 
pretty much do it anywhere.
    So those are the kind of people that we are trying to 
promote within Palestine. These will be a basis for a two-state 
solution.
    The other night the secretary had a dinner. He had major 
American investors who are looking at Palestine as a future 
investment if and when a two-state solution is reached and 
peace breaks out. We have programs underway to promote 
mortgages--pretty fundamental issue--in the Palestinian 
Authority to try and build a base for this.
    So it is not a perfect situation by any means and, my 
goodness, the Palestinians have done a lot of stupid things 
over the years but we need to work with those people we can 
work with to try and, one, moderate the government and build a 
grassroots movement and then build some kind of economic system 
going forward so we won't have to provide all this assistance 
in the future.
    Mr. Schneider. So I had the privilege of being in Israel 
exactly a year ago. I went to Ramallah. Ramallah is a booming 
town. Buildings are--there are cranes all around the city. They 
are building roads. They are building roads with medians, with 
flowers in the center. They are investing in their future.
    We drove through Jericho. Jericho is a bustling city with 
development and malls and all the things you are talking about. 
It is possible for Palestinians--entrepreneurial Palestinians 
to work toward their economy.
    Yet the leadership and the leadership we seem to be engaged 
with continues to make choices, continues to turn to Hamas, 
continues to turn to the U.N. and we continue to fund them.
    When do we--to echo the point made earlier, when do we say 
we need to hold the Palestinian leadership accountable and we 
need to have expectations that they will adhere to the 
agreements they are making to us?
    Ms. Patterson. I think we do hold them accountable and I 
think--I think we do hold them accountable. Much of our 
resources, much of our assistance goes--in the cash transfer 
goes into repaying Israel for goods and services provided. But 
we do have to work with this other element in the Palestinian 
Authority.
    The Palestinian leadership, these are older fellows. At 
some point they are going to move on. There are going to be 
openings for these younger individuals to move up and you 
probably met some of them in Jericho and Ramallah too.
    So we just have to keep--we just sort of have to keep at it 
in the Palestinian territory and, frankly, in many other 
countries in our region and work with the people we can work 
with.
    Mr. Schneider. All right. Well, I agree it is the whole 
region. Israel faces a lot of threats. We face a lot of 
threats. We need to have success in Egypt that there is the 
rule of law and that there is the opportunity for their economy 
to grow.
    As was mentioned earlier, we met with the foreign minister 
and he talked about needing to have 8 percent to 10 percent 
growth. Jordan is of grave concern. The fourth largest city in 
Jordan is a refugee camp, and Ms. Romanowski, maybe I will turn 
to you.
    How are we making sure that as we see these refugee camps 
grow--and I think it is several hundred thousand people now 
living on the border of Jordan and Syria, you have 1 million 
refugees in Lebanon--that we are providing services in a way 
that provides for extended care of these people that don't 
become permanent cities and permanent burdens on the states 
where they are.
    Ms. Romanowski. We are actually doing a lot of that in our 
programs--bilateral programs both in Lebanon and in Jordan 
where we have, as soon as the refugees started coming over, we 
began to adjust a lot of the programs that we were doing in 
Jordan anyway and in Lebanon to accommodate the Syrians who 
came into the host communities.
    As you know, the refugee camps' issue is the purview of the 
State Department's PRM bureau. But USAID has--because we had 
extensive programs already working on expanding schools, 
improving schools, improving water management, improving 
private sector development, as soon as the stresses of the 
Syrian refugees came in both from Lebanon and in Jordan 
particularly we shifted and we made sure that what we were 
doing included and took into account the pressures of those 
Syrian refugees, largely, first of all, to accommodate them but 
also not to create enormous tensions within Jordan and Lebanon.
    Mr. Meadows. Thank you, Mr.----
    Mr. Schneider. We could speak for 5 hours or 5 days we 
would scratch the surface. I have 5 minutes so I will yield 
back.
    Mr. Meadows. Thank you, Mr. Schneider, and we will go to 
Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman, and again thank you 
all for being here. We will have our disagreements on some of 
the issues but I appreciate your service to your country and 
for spending the time with us this morning.
    I am a pilot in the military and one of the first things 
you learn in dealing with emergencies is that the first thing 
you have to do is maintain aircraft control and then you 
analyze what is going on and then you take the appropriate 
actions.
    But the first thing you have to do is fly the aircraft 
because if you get, you know, focused on all the problems 
before maintaining aircraft control you are going to find 
yourself buying the farm pretty quickly.
    So I see a Middle East that is on fire. I see Jordan that 
has the amount of refugees moving into it without jobs as would 
be the equivalent of Canada moving into the United States 
without work. So that is a pretty serious situation for 
Jordan's stability.
    As I mentioned in my opening, I see Iraq where you have 
ISIS and al-Qaeda-linked elements that now have where the 
Marines fought the hardest--they fought, frankly, since Vietnam 
in Fallujah, including a colleague of mine, Duncan Hunter, who 
is a veteran of Fallujah.
    I look at Iran and I think it is pretty much a foregone 
conclusion that whatever our final deal is it will have some 
right to enrich uranium for the Iranians despite the fact that 
UAE and South Korea we don't give the right to enrich uranium--
some of our best allies.
    Concerns with Turkey, I see Egypt--you know, frankly, I am 
glad the Muslim Brotherhood is out of Egypt. I haven't heard 
the administration's position necessarily on that. I see a 
Russia that is moving into Ukraine and a big situation in North 
Korea that has artillery fire drills, on the south an 
emboldened China.
    And where I have been concerned is that our focus has been 
this Israel-Palestinian thing. And I think, look, in the '90s 
this was a big issue and it was a huge issue because it was, 
frankly, a relatively stable Middle East. But as the Middle 
East has caught on fire and problems have arisen and we have 
the problem with jihadism and instability all over the place, 
the importance of Israel-Palestinian conflict has stayed the 
same but all these other issues--this maintaining of aircraft 
control--have gotten big, and I get concerned that all of our 
energy is being sucked in by this.
    It is a noble cause--I mean, trying to create peace between 
these two folks is a noble cause. But we have huge, huge 
burning issues in the Middle East. Today, I want to drill down 
a little bit on the issue of Syria and I want to say to the 
Ambassador how will the administration's ongoing strategy 
review for Syria shape the use of Fiscal Year 2015 funds 
requested for Syria and could you actually briefly explain what 
our policy and what our strategy is in Syria, if you had to put 
it in a few sentences or a paragraph, I guess?
    Ms. Patterson. Yes, Mr. Kinzinger, and maybe we could come 
back to some of these other issues. But let me explain. Our 
policy is to work toward a negotiated solution. We do not 
believe there is a military solution available in Syria and, 
secondly, or policy is to curtail and you are absolutely 
correct in your description of the spread of ISIS.
    Particularly in eastern Syria and western Iraq it is an 
exceedingly serious issue right now and they have made very 
significant inroads into western Iraq to contain the terrorist 
threat.
    I think DNI Clapper testified before the full committee on 
this and he talked about the presence of foreign extremists in 
Syria, some of whom have come from the tribal areas of Pakistan 
and some of the whom are looking at targets outside the region.
    So yes, it is a very serious problem and I certainly do not 
want to convey that we see the Israeli-Palestinian issue as the 
only issue in the Middle East. So we are trying to contain it.
    We are a major donor to Lebanon and Jordan. Ms. Romanowski 
has outlined some of the projects we have done. It is about 
$1.7 billion equally divided between activities inside Syria 
and activities on the ground.
    Mr. Kinzinger. How much was that again? I am sorry.
    Ms. Patterson. One point seven billion dollars and that 
is--we are asking for additional funds because the humanitarian 
crisis is quite severe.
    We provide assistance inside of Syria so people will 
hopefully not flee the country. We are feeding enormous numbers 
of people there and we are resuming--we have rushed to provide 
Iraq with small arms, Hellfire missiles, surveillance and 
advice.
    Mr. Kinzinger. And I--and I think that is great. I mean, we 
can revisit whether we should have left Iraq or not. I believe 
we shouldn't have. But, you know, it is done and we can't 
reintroduce troops there nor should we.
    But I think it is important that we understand that this is 
a fight that a lot of Americans died for. Whether you agree 
with the beginning of the war or not, it is what it is. You 
talked about a negotiated solution in Syria. How?
    I mean, what you have right now is an extremist opposition. 
You have a moderate opposition who we should be supporting and 
building up and you have a very evil dictator that has killed 
almost 200,000 of his own people including now with this new 
thing called chlorine gas, which I can't imagine--has got to be 
one of the most terrible ways to die or choke to death.
    How do you negotiate a solution when we have made Assad a 
partner in getting rid of his gas? We are not really very 
intensely going after al-Qaeda-linked elements in Syria even 
though I always thought our country had a policy of al-Qaeda 
shall not live peacefully anywhere. And then the moderate 
opposition that we may be giving some humanitarian assistance--
we are probably not giving a lot of arms or command and control 
ability.
    So if you could answer that. And then also why is it that 
our allies in the Middle East keep telling me we are not doing 
anything in Syria? Where is that disconnect happening? Because 
I have talked to some very good allies in the Middle East that 
say the United States has not taken a leadership role and every 
administration official that comes before me says we are doing 
the best thing we have ever done in the Middle East--this is 
great--this is amazing.
    Our allies are saying no. Where is that disconnect and how 
do we get our allies to believe we actually care about what is 
happening in Syria?
    Mr. Meadows. Ambassador, if you can summarize quickly. 
Thank you.
    Ms. Patterson. Yes, quickly. Let me talk about the chemical 
weapons. We have got 92 percent of the chemical weapons out 
right now. I guess I would disagree with you, Mr. Kinzinger, 
that that has emboldened Bashar al-Assad. That was the biggest 
threat to the Syrian people and to Syria's neighbors.
    Mr. Kinzinger. Well, I think Assad was the biggest threat 
to the Syrian people.
    Ms. Patterson. Yes, but this is the biggest short-term 
threat. Now, Assad is a huge threat and I don't want to 
downplay and, of course, our policy is to go after al-Qaeda 
anywhere they are.
    Let us not be under any illusions about that. And regarding 
our allies, I think if you spoke to them, and I don't know how 
recently you have, but I think you would find there have been 
very significant cooperation in some areas of some areas, 
particularly with Saudi Arabia and Qatar in recent months that 
I think will make a difference.
    Mr. Kinzinger. Thank you very much.
    Mr. Meadows. Thank you. We will go to the gentleman from 
Texas, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. Ambassador Patterson, 
do you have a dollar figure on the amount of stipends--I forget 
what they call it--going to the terrorists in prison--kind of 
the salaries?
    Ms. Patterson. No, I don't have a figure. This is--they pay 
families whose relatives are imprisoned and then they do pay 
some of these people after they are released, and I don't have 
that figure.
    Mr. Weber. I mean, there have been figures reported in the 
media and, forgive me, I don't remember exactly what those 
figures were. Do you remember any estimates?
    Ms. Patterson. No, sir. I don't.
    Mr. Weber. Okay. Well, let me ask the question this way 
then.
    Ms. Patterson. I will try and provide you with some figures 
on that.
    Mr. Weber. Okay. Well----
    Ms. Patterson. I think--I know it is available because I--
--
    Mr. Weber. Forty million dollars maybe. Is that $20 million 
a year? Is that--don't know?
    Ms. Patterson. Just don't know.
    Mr. Weber. What do you think about the idea of reducing any 
moneys that we give to the PA by twice that amount and saying 
when they clean up that process, that procedure, when it halts 
the reward of terrorism then we will talk about getting their 
money back to them?
    Ms. Patterson. Well, I think we have scrubbed this request, 
Mr. Weber, as significantly as we can and I think--and it is in 
great detail. We can provide the details to you.
    I think all this money goes into worthwhile projects and 
the cash transfer goes, as I say, into reimbursing others for 
goods and services. I think the projects and particularly on 
the security side are very well thought out and I would hate to 
see any of it reduced.
    Mr. Weber. Well, I mean the revelation that they were 
paying terrorists who had Israeli blood on their hands and some 
American blood on their hands as well and others, is just 
incomprehensible to me.
    I am going to go back to your statement earlier that Mr. 
Meadows asked about the PA being willing to accept the fact 
that Israel has not only the right to exist, and Brad Schneider 
alluded to the resolution and the date, but actually needs to 
recognize the fact that they have the right to exist as a 
Jewish state, and you said you thought that was too much of a 
stretch.
    Ms. Patterson. I was talking about Hamas, Mr. Weber. I was 
talking about Hamas. What I tried to say was I think to get 
Hamas to recognize Israel's right to exist and renounce 
violence would be a very significant step forward.
    Mr. Weber. Well, then in my opinion they shouldn't be 
allowed to participate in the government over there if they 
want any of our money. If they--I mean, they want all of our 
money but not all of our ideas. How does that work?
    Ms. Patterson. Sir, we would never support and we will 
certainly not support a Palestinian Government that includes 
Hamas because of those reasons, because they have not accepted 
those principles.
    Mr. Weber. So you are in favor of reducing any type of 
foreign aid that we send them if there is a Hamas connection 
there?
    Ms. Patterson. Absolutely.
    Mr. Weber. And what percentage would you reduce that?
    Ms. Patterson. Well, I mean----
    Mr. Weber. Would you shut it all down?
    Ms. Patterson. Hamas is a designated terrorist organization 
and it is illegal for Americans or American funding to engage 
in that.
    Mr. Weber. I get that. So you would be willing to deny all 
foreign aid to the PA if they form a government with Hamas?
    Ms. Patterson. Yes, if--yes. If Hamas is----
    Mr. Weber. Okay. Now, we are--now we are getting somewhere. 
Now we need to negotiate the dollar amount. So that if the PA 
is paying for terrorists in prison we ought to also be willing 
to hit them with some economic sanctions of that sort. Don't 
you agree?
    Ms. Patterson. Sir, I think--I think this, obviously, is a 
difficult problem and when they pay the families of people that 
are imprisoned and they pay stipends I would say that is a 
political prisoner and I, frankly, know that they are going to 
try and phase that out and we should give them an opportunity 
to do so.
    Mr. Weber. But we could help them phase that out.
    Ms. Patterson. I would be hard pressed, Mr. Weber----
    Mr. Weber. We could give them some encouragement.
    Ms. Patterson [continuing]. Hard pressed to say which of 
the programs for the Palestinian Authority we should cut. I 
would be very hard pressed to say that.
    Mr. Weber. Well, I think if we made it clear that we were 
cutting that dollar amount because of that practice and we had 
to--and then the next question I have right behind that is how 
do we verify that. What does that look like?
    Ms. Patterson. We can provide those details to you but it 
is very extensively audited and reviewed. When I looked at 
these I was--frankly, having been the deputy IG, it is a 16--I 
think a 16-stage auditing and review process. It looked to me 
like the most extensive reviewed foreign assistance program 
that we have on the planet.
    Mr. Weber. Who initially sounded that alarm that this money 
was going to those terrorists? Do you know?
    Ms. Patterson. I am sorry. The terrorists----
    Mr. Weber. Who brought this to light that they were paying 
terrorists in prison or the families of terrorists--PA was? Do 
you know?
    Ms. Patterson. Well, that has been the case for some time.
    Mr. Weber. And who brought that to light?
    Ms. Patterson. I don't know.
    Mr. Weber. Why do you think we haven't acted on it to date?
    Ms. Patterson. Because I think--I think, one, that it is a 
political issue for the Palestinians--that these people are in 
jail, they have to provide for the families and, again, I think 
that they plan to phase it out.
    Mr. Weber. I yield back, Mr. Chair.
    Mr. Meadows. I thank the gentleman from Texas. I go to the 
gentleman from Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. Ladies, I appreciate 
your testimony and I know you are getting tired of this and I 
hate to bring it up one more time.
    Certainly, you hear the contention here, the anxiety over 
the Palestinian Authority and the foreign aid going there. 
Without beating it too hard, they have got Resolution 21 and 23 
on their books that says they pay the stipends.
    I propose that all foreign aid is cut to the Palestinian 
Authority until they remove those two resolutions. What would 
you think would happen with that?
    If we are serious we are serious, and if not--I mean, it is 
like you said. They have been doing this. We have known about 
it for years. We have addressed it. You talked and you said 
there were stiff messages sent. But if we just said, you know, 
fine--we are stopping all aid until you remove those 
resolutions that say we pay these people.
    Ms. Patterson. I think--I think fundamentally the support 
for the Palestinian Authority is in our interest. To have a 
peaceful area, now quite peaceful, adjacent to Israel, 
patrolled by well-trained Palestinian police and, again, there 
are 70 million in the--Israel will have to take over those 
security duties, sir.
    Mr. Yoho. I hear what you are saying. But if we were just 
to say we have talked about this for year after year after 
year, I have got to go back to my district and tell people that 
we are giving money to an area that promotes terrorism.
    If we are serious we need to be serious and say until you 
remove those resolutions from your--I am not telling you how to 
live--I am just saying take those resolutions off your book if 
you want our assistance, and if you want the assistance in the 
name of peace we will help you, and that is even a hard sell in 
my district.
    But if you want it get rid of those resolutions. I mean, 
what do you think would happen if we did that? Do you think 
they would come to the table, say you know what, we get it--we 
are done? Do you think they would do that?
    Ms. Patterson. I don't--I don't know, Congressman. But what 
I think is removing assistance from the Palestinian Authority 
would, frankly, be a disaster because you would have----
    Mr. Yoho. How do you view it now? I mean, we have been 
doing that and it is--it is not going real well. Ms. 
Romanowski----
    Ms. Patterson. No, that is--I would disagree with that. 
Actually, there have been huge improvements over the past few 
years. Certainly in the security side there have been enormous 
improvements in the Palestinian----
    Mr. Yoho. But if you look at the missile attacks over the 
last year I have seen an increase, have we not?
    Ms. Patterson. Congressman, those, at least as far as I 
know, mostly come from Gaza, which is under the control of 
Hamas. So we are not talking about Gaza. We are talking--or the 
Hamas--we are talking about the Palestinian Authority run by 
President Abbas and----
    Mr. Yoho. I get that, but again, it is sending a signal 
that we--what we say we mean and they need to pay attention if 
they want our assistance. Ms. Romanowski.
    Ms. Romanowski. Let me see if I can get a few very 
important points out in terms of how we monitor and ensure that 
the funds are going to where we believe they are.
    First of all, as my colleague said, it is one of the most 
heavily monitored and evaluated assistance programs that we 
have. All the programs are monitored every year. When it comes 
to the cash transfer it is something that is done very 
precisely.
    When we do the budget support we do a single transfer 
treasury account, which actually we beforehand approve and 
review all of the debts that will be paid and all the bills 
that we pay, and when the transfer actually occurs we have 
someone who is sitting actually there ensuring that the funds 
are transferred and then the bank account closes.
    Mr. Yoho. I understand that whole concept but yet those 
resolutions are still on their books--21 and 23. All I am 
saying is get rid of those resolutions and you can have the 
foreign assistance back. That is all I am asking.
    You know, we can monitor it and we can watch it. But as 
long as those are on the books they are still promoting that. 
Let me move on to something else because you were talking about 
the aid that we give----
    Ms. Ros-Lehtinen. We will make that--Dr. Yoho, we will do 
that.
    Mr. Yoho. Yes, ma'am. I appreciate it.
    Ms. Ros-Lehtinen. Good. Thank you. Why don't you just bring 
it to their attention?
    Mr. Yoho. Okay. The U.S. aid that we give you were saying 
to Jordan that we have invested in a lot of jobs or business 
development--economic development. What is their unemployment 
rate right now?
    Ms. Romanowski. The last----
    Mr. Yoho. Egypt--in Egypt.
    Ms. Romanowski. In Egypt or in Jordan?
    Mr. Yoho. I am sorry. Egypt.
    Ms. Romanowski. In Egypt?
    Ms. Patterson. It is about 22 percent, about that.
    Mr. Yoho. What was their unemployment rate 10 years ago? 
Any idea?
    Ms. Patterson. I don't know. But unemployment--let me be 
clear--unemployment in most Middle East countries has gone up 
because of a huge youth bulge. There is a--this is true across 
every single country in the Middle East because of the--with 
the exception of Israel, because of the unemployment of--very 
severe unemployment of mostly young men. With young women it is 
even worse.
    Mr. Yoho. Well, that is kind of what I am--I am sorry.
    Ms. Ros-Lehtinen. Go ahead. But we will wrap it up.
    Mr. Yoho. Well, what I was--we are investing in 
development--economic development and educating the students 
but if there is no jobs there is nowhere for them to go.
    What is being done as far as industry or business 
development in that area and are we focussing on that? And 
again, it goes back to trade, not aid.
    Ms. Patterson. Mr.--can I answer?
    Ms. Ros-Lehtinen. Good questions to ponder. But thank you, 
Madam Ambassador. We are going to move on, if we could. And Mr. 
Collins is recognized.
    Mr. Collins. Thank you, Madam Chair. Thank you for being 
here. Just a few quick questions and we can go through unless 
they----
    Ms. Ros-Lehtinen. A little closer to your----
    Mr. Collins. Here we go. All right. We are here. Welcome to 
Congress Radio, playing all the hits and asking all the 
questions that some like to answer and some don't. But this has 
been a good day so far.
    Seventy million dollars security assistance for Palestinian 
Authority was requested in the President's budget for training, 
equipment, infrastructure for Palestinian security forces. I 
know it has been discussed a little bit today. How will this 
program be affected by the recent unity government agreement, 
especially with Hamas?
    Ms. Patterson. It won't be affected because there isn't an 
agreement yet and we would plan to proceed because this is one 
of the highlights----
    Mr. Collins. Do you plan to proceed even if Hamas--if the 
agreement is made?
    Ms. Patterson. No. Certainly not, sir. Certainly not.
    Mr. Collins. Okay. So then it would be suspended 
completely?
    Ms. Patterson. Let me be clear on this. But the Palestinian 
security forces are a very considerable success. They are well 
trained.
    The $70 million that we have asked for in the budget is 
essentially for advanced and refresher training to teach the 
Palestinian police skills like forensics and advanced criminal 
investigation and to bring back their leadership's middle 
management and refresh their skills. But it has turned into 
quite a professional police force.
    Mr. Collins. Okay. And that is--you know, I guess it 
concerned--you know, good to hear on one point. What are we 
spending now currently to help them?
    Ms. Patterson. The police?
    Mr. Collins. Are we giving any money to support--and I am 
asking a question. I am not--I don't have an answer.
    Ms. Patterson. I beg your pardon. I am sorry. I didn't hear 
you.
    Mr. Collins. How much are we spending now to provide 
training and equipment and support to the security forces?
    Ms. Patterson. I can't remember the figure but I will get 
that for you. But this is a reduction.
    Mr. Collins. This is a reduction? Okay.
    Ms. Patterson. This is a reduction. Over the past few years 
we spent more because we were basically training hundreds if 
not thousands of them in Jordan at this police institute in 
Jordan.
    Mr. Collins. Okay. Let us just follow up on that just from 
a policy perspective for just a moment. Let us just assume, 
which I believe many do, including myself, that there is a good 
probability that this Hamas agreement is going to go through. 
Okay.
    It does stop this but what--with the money that we have 
already spent with the highlighted area here the concern that I 
have in this region, especially when we are spending money and 
we sort of, now, frankly there is--you only can beat this horse 
so long.
    But with Hamas coming back in here with a relatively well 
trained, in your words, security forces does that not present 
at least a policy issue as we go forward? I know it is not a 
budget question per se but it is a policy question going 
forward.
    Ms. Patterson. Mr. Collins, I would doubt that this 
agreement would go forward and, yes, if it did of course it 
would be an issue. But I mentioned earlier that there have been 
seven similar discussions--agreements since 2011. Many of them 
took place in Egypt so I saw this firsthand and they have 
political reasons for doing this but none of them so far have 
materialized.
    Mr. Collins. Do you think there is political reasons for 
going about it now?
    Ms. Patterson. Yes. I think maybe some of them would 
actually be of considerable reassurance to this committee. But 
maybe we can discuss that later. But I do not----
    Mr. Collins. Okay. Let me--let me stop right there. I want 
to just say considerable reassurance--hold on.
    Ms. Patterson. Well, I think--I think--I think relations 
with----
    Mr. Collins. Reclaiming my time. Considering this committee 
and its concern, in my personal opinion, for Israel I am not 
sure how you can reassure me that the Palestinian Authority, 
teaming with Hamas or entertaining that thought, again, with 
Hamas is helpful to me or this committee or Israel.
    Ms. Patterson. Excuse me, sir. But what I was trying to say 
was that I think the relations between Fatah and Hamas are not 
good, and I think one reason that President Abbas enters into 
these discussions is to try and limit Hamas and essentially 
clip their wings in Gaza.
    So I think that would be perhaps of some modest reassurance 
because it would have long-term security implications from 
Israel because as I mentioned most of the rockets that attack 
Israel, and there was quite a spate a year and a half ago, come 
from Gaza.
    Mr. Collins. So you--again, I think we just probably will 
just have to, you know, kindly agree to disagree here. I mean, 
I am not really sure how it is clipping their wings. Hamas 
still does what they do. They continue to do what they do.
    I think that, frankly, is more of an issue of the actual 
peace agreement in and of itself and I am not sure there is 
actually a want to continue here and I think they use it as a 
way to push away from the table when they don't want to deal 
with certain issues and then when they want to come back they 
come back to the table.
    So I think taking a very rosy approach to that is, frankly, 
disturbing. Moving on to another question, funds have been used 
in Lebanon, Jordan, Iraq dealing with Syria. Again, not dealing 
with the numbers issue here but I do want to look long term 
here.
    Given the state of Syria as we know it today, how long do 
you believe that these enhanced funds are going to have to be 
there to help with different issues--varying issues, 
humanitarian issues and other things--in these, you know, 
surrounding countries? Is there hope that we can start 
beginning to cull that back or is this just going to become, 
frankly, a long-term request?
    Ms. Patterson. I don't know, Mr. Collins, what the long 
term would be. But I would say that for several years we are 
going to--you could probably anticipate requests of this 
magnitude----
    Mr. Collins. Okay.
    Ms. Patterson [continuing]. Because the humanitarian 
situation is quite serious.
    Mr. Collins. Madam Chair, I know my time is up. Just some 
of this just really disturbs me and I think really--and I 
appreciate the ability just to agree to disagree sometimes.
    But this--I think for those of us who watch this, for those 
of us who actually look at Israel as a preeminent ally and 
friend in the region, to consider anything that an outreach 
from the Palestinian organization to Hamas is anything of 
clipping wings or anything else I think very seriously 
undermines what is actually going on and I am very disturbed by 
that, even from a budget perspective.
    And I respect your opinion. We are just going to disagree 
on this one. Madam Chairman, I yield back.
    Ms. Ros-Lehtinen. I agree. Thank you so much. Thank you, 
Madam Ambassador.
    Thank you, Ms. Romanowski, and thank you to all of our 
members for being here and the audience.
    And with that, the subcommittee has concluded.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
